MAIN APPENDIX
OF JUDICIAL OPINIONS
AND ORDERS
CASE NO. 20-4087 (10th Cir.)

RECEIVES
SFP I o ?0?1

iilSgJgMF™
u.s.

TABLE OF CONTENTS
1. Order
Denying
(Case No. 20-4087)(lQth Cir.)

Petition

for

Rehearing
............ 001

2. Order Recalling 10th Cir. Mandate

003

3. Notice of Issue, Mandate (10th Cir.)

005

4. Order and Judgment (10th Cir.)

007

5. Issue on Appeal Taken in Bad Faith, Hon. Snr. Judge Dale Kimball,
2:20-cv-00205-DAK (D. Utah)
023
6. Memorandum and Order Denying Motion to Set Aside
7. Judgment and Order Dismissing, Hon.
2:20-cv-205-DB........................................................

027

Snr. Judge Dee Benson,
.............................................. 031

8. Order Denying Stay of Mandate, Recusal (Case No. 19-4041)(10th Cir.)..... 045
9. Order and Judgment, (Case No. 19-4041)(10th Cir.)

047

10. Order and Judgment, Hon. Judge David Nuffer, 2:18-cv-00728-DN

053

Appellate Case: 20-4087

Document: 010110532783

Date Filed: 06/08/2021

-------

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 8,2021
Christopher M. Wolpert
Clerk of Court

CARLOS VELASQUEZ,
Plaintiff - Appellant,
v.

No. 20-4087
(D.C. No. 2:20-CV-00205-DB)
(D. Utah)

STATE OF UTAH, et al.,
Defendants - Appellees.

ORDER

Before MORITZ, BALDOCK, and EID, Circuit Judges.

Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

001

t

002

Appellate Case: 20-4087

Document: 010110531088

Date Filed: 06/03/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 3, 2021
Christopher M. Wolpert
Clerk of Court

CARLOS VELASQUEZ,
Plaintiff - Appellant,
v.

No. 20-4087
(D.C. No. 2:20-CV-00205-DB)
(D. Utah)

STATE OF UTAH, et al.,
Defendants - Appellees.

ORDER

This matter is before the court sua sponte to correct a clerical error. The mandate
issued on May 18, 2021, was issued in error. See Fed. R. App. P. 41(b). Accordingly, the
mandate is recalled.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

by: Lisa A. Lee
Counsel to the Clerk

003

0

i

i

004

Appellate Case: 20-4087

Document: 010110523943

Date Filed: 05/18/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

May 18, 2021

Jane K. Castro
Chief Deputy Clerk

Mr. D. Mark Jones
United States District Court for the District of Utah
351 South West Temple
Salt Lake City, UT 84101
RE:

20-4087, Velasquez v. State of Utah, et al
Dist/Ag docket: 2:20-CV-00205-DB

Dear Clerk:
Pursuant to Federal Rule of Appellate Procedure 41, the Tenth Circuit's mandate in the
above-referenced appeal issued today. The court's April 26, 2021 judgment takes effect
this date.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

cc:

Carlos Velasquez

CMW/jm

005

006

Appellate Case: 20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 26, 2021
Christopher M. Wolpert
Clerk of Court

CARLOS VELASQUEZ,
Plaintiff - Appellant,
v.
STATE OF UTAH; UTAH
DEPARTMENT OF HUMAN SERVICES;
UTAH DIVISION OF AGING AND
ADULT SERVICES/APS; UTAH OFFICE
OF ADMINISTRATIVE HEARINGS;
GARY R. HERBERT, Utah Governor;
SEAN REYES, Utah Attorney General;
UTAH LEGISLATURE; UTAH OFFICE
OF LEGISLATIVE RESEARCH AND
GENERAL COUNSEL; THOMAS R.
VAUGHN, Utah Attorney of General
Counsel; NELS HOLMGREN, Utah
Division of Aging and Adult Services
Division Director; J. STEPHEN MIKITA,
Utah Assistant Attorney General (Adult
Protective Services); SONIA SWEENEY,
Utah Office of Administrative Hearings
Division Director; LAURA THOMPSON,
Utah Assistant Attorney General (Utah
Department of Human Services);
AMANDA SLATER, Utah Office of
Licensing Division Director; UNITED
STATES ADMINISTRATION OF
COMMUNITY LIVING,

No. 20-4087
(D.C. No. 2:20-CV-00205-DB)
(D. Utah)

Defendants - Appellees.

ORDER AND JUDGMENT*
* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of

007

Appellate Case: 20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 2

Before MORITZ, BALDOCK, and EID, Circuit Judges.

Carlos Velasquez, proceeding pro se, appeals the district court’s judgment
dismissing his action for failure to state a claim on which relief may be granted.
Exercising jurisdiction pursuant to 28 U.S.C. § 1291, we affirm the district court’s
judgment. As to the dismissal of his claims against certain defendants, we affirm on
the alternative ground that Velasquez’s claims are barred by issue preclusion.
I.

Background
This is the second of two actions that Velasquez has filed in the district court

related to certain administrative law proceedings in Utah. See Velasquez v. Utah,
775 F. App’x 420, 421 (10th Cir.) (noting the genesis of his first action), cert, denied,
140 S. Ct. 615 (2019). After these administrative law proceedings concluded, he
filed suit in Utah state court asserting his original claims and challenging the fairness
of the administrative law proceedings and the constitutionality of several Utah
statutes and regulations. See id. Velasquez’s state-court litigation proceeded through
the trial court, the Utah Court of Appeals, and the Utah Supreme Court. See id.
Unable to find success after exhausting his appeals in Utah state court, he
sued the State of Utah and several state agencies in federal district court. In
federal court he once again raised his constitutional claims from state court
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
2

008

Appellate Case: 20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 3

while adding constitutional claims that the Utah Supreme Court sustained
malice, refused to clarify the constitutional question, and refused to
recognize evidence.
Id. (citation and internal quotation marks omitted).
The district court dismissed Velasquez’s first action {Velasquez I) for lack of
jurisdiction under the Rooker-Feldman doctrine,1 concluding that Velasquez was
asking the court to review decisions rendered in the Utah administrative law
proceedings and by the Utah state courts. See id. We affirmed the district court’s
dismissal of Velasquez I for lack of jurisdiction, concluding that:
he appears to challenge decisions by the Utah state courts reviewing his
state administrative law appeal. He claims that the Utah state courts
violated his constitutional rights in the course of that litigation and seems to
seek reversal of decisions he lost on the merits. This is precisely the type of
suit that Rooker-Feldman prevents federal district courts from hearing.
Having already raised his various objections in state court and failed, [he]
has now repaired to federal court to undo the state-court judgment against
him.
Id. at 422 (brackets and internal quotation marks omitted). The United States
Supreme Court denied Velasquez’s petition for a writ of certiorari.
Several months later, Velasquez filed this action in the district court against
the State of Utah and several state agencies and officials (collectively the State
Defendants), and the United States Administration for Community Living
{Velasquez II). Upon screening the new complaint pursuant to 28 U.S.C.
§ 1915(e)(2), the district court held it was subject to dismissal under subsection

1 Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923); D.C. Ct. ofAppeals v. Feldman,
460 U.S. 462(1983).
3

009

Appellate Case: 20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 4

(e)(2)(B)(ii) because it failed to state a claim on which relief may be granted. The
court construed the complaint in Velasquez II as originating from the same
administrative law proceedings as the prior complaint in Velaquez I and as seeking to
void those proceedings. It stated that “it appears that Plaintiffs complaint alleges
that his civil rights were violated in the proceedings in the Administrative Case and
that certain Utah statutes and legislation are unconstitutional.” R. at 596. The court
therefore held that Velasquez’s claims against the State Defendants in Velasquez II
were barred by claim preclusion because (1) there was a final judgment on the merits
in Velasquez I; (2) the parties in Velasquez II were the same as in Velasquez I or were
in privity with the parties in Velasquez /; and (3) the claims or legal theories in
Velasquez II arose from the same transaction, event, or occurrence as the claims or
legal theories in Velasquez I and Velasquez was attempting to relitigate issues that
were or could have been raised in Velasquez I.2
Velasquez filed two post-judgment motions. In one motion he cited Federal
Rule of Civil Procedure 60(d)(3) and alleged fraud on the court. His second motion
sought reassignment of the case to a different district court judge. The district court
denied both motions.

2 The district court also dismissed Velasquez’s claims against the United States
Administration for Community Living for failure to state a claim on which relief may
be granted because “his complaint [was] entirely devoid of any allegations
concerning that defendant.” R. at 601. Velasquez does not challenge that ruling on
appeal. Nor does he argue the court erred in holding that amendment of his
complaint would be futile.
4

010

Appellate Case: 20-4087

II.

Document: 010110512636

Date Filed: 04/26/2021

Page: 5

Discussion
We review de novo a dismissal under § 1915(e)(2)(B)(ii). See Kay v. Bemis,

500 F.3d 1214, 1217 (10th Cir. 2007). To the extent that Velasquez raises any claim
of error in the district court’s denial of his post-judgment motions, we review those
rulings for an abuse of discretion. See United States v. Buck, 281 F.3d 1336, 1342-43
(10th Cir. 2002) (reviewing denial of relief on ground of fraud on the court for abuse
of discretion); United States v. Mobley, 971 F.3d 1187, 1195 (10th Cir. 2020)
(reviewing denial of motion to recuse for abuse of discretion). Because Velasquez is
proceeding pro se, we liberally construe his complaint and his appeal brief. See Hall
v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991) (complaint); Cummings v. Evans,
161 F.3d 610, 613 (10th Cir. 1998) (brief). But we do not act as his advocate. See
Hall, 935 F.2d at 1110.
“Res judicata, or claim preclusion, precludes a party or its privies from
relitigating issues that were or could have been raised in an earlier action, provided
that the earlier action proceeded to a final judgment on the merits.” King v. Union
Oil Co. of Cal., 117 F.3d 443, 445 (10th Cir. 1997). “Claim preclusion requires:
(1) a judgment on the merits in the earlier action; (2) identity of the parties or their
privies in both suits; and (3) identity of the cause of action in both suits.” Yapp v.
Excel Corp., 186 F.3d 1222, 1226 (10th Cir. 1999).
Velasquez raises no meritorious claim of error on appeal. It is unclear whether
he challenges the district court’s holdings on any of the claim preclusion elements,

5

011

Appellate Case: 20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 6

and if so, what his contentions are.3 He appears to argue primarily that Velasquez I
should not have been dismissed on Rooker-Feldman grounds. But that issue was
conclusively decided by the district court in Velasquez I and affirmed on appeal by
this court. Moreover, Velasquez’s assertions of fraud on the court and judicial bias
are patently without merit.
We nonetheless conclude that the district court erred in dismissing
Velasquez II based upon claim preclusion. Although Velasquez has forfeited review
of this error by failing to raise it in his appeal brief, see Bronson v. Swensen,
500 F.3d 1099, 1104 (10th Cir. 2007), we exercise our discretion to address it, see
United States v. McGehee, 672 F.3d 860, 873 n.5 (10th Cir. 2012).
In holding that the first element of claim preclusion was satisfied, the district
court concluded that Velasquez I had resulted in “a final judgment on the merits”
because that case was dismissed “with prejudice.” R. at 599.4 But the judgment in

3 For example, regarding a judgment on the merits in Velasquez /, Velasquez
states that the district court “does not develop the first requirement” and he asserts
that “[s]aid first requirement is conspicuous against a civil IFP deficiency
termination.” Aplt. Br. at 21. Regarding the “finality of Velasquez If id. at 22, he
discusses the three strikes provision in 28 U.S.C. § 1915(g), which applies only to
dismissals of actions or appeals by prisoners. Although Velasquez mentions privity,
he does not develop an argument of error regarding the district court’s holding on
identity of parties in both actions. And he asserts “there is no original cause to find
complete precedence for transactional claim preclusion,” id. at 19, but fails to
develop an argument that the district court erred in holding that the claims in both
actions arose from the same transaction, event, or occurrence.
4 The district court purported to dismiss Velasquez I with prejudice after
holding that amendment of the complaint would be futile. See Mem. Decision &
Order of Dismissal at 5-6, Velasquez v. Utah, No. 2:18-cv-00728-DN (D. Utah Feb.
25, 2019), ECF No. 27. But “[a] denial of leave to amend to repair a jurisdictional
6

012

Appellate. Case- 20-4087 -Document: 010110512636

Date Filed: 04/26/2021

Page: 7

Velasquez I was not on the merits of Velasquez’s claims. Rather, the district court
dismissed that action for lack of subject matter jurisdiction under the
Rooker-Feldman doctrine. See Velasquez, 775 F. App’x at 421-22. And a dismissal
for lack of jurisdiction does not have a broad res judicata effect. See Matosantos
Com. Corp. v. Applebee’s Int’l, Inc., 245 F.3d 1203, 1209 (10th Cir. 2001) (“[A]
dismissal for lack of jurisdiction does not bar a second action as a matter of claim
preclusion . . . .” (internal quotation marks omitted)). Thus, the district court erred in
applying claim preclusion to dismiss Velasquez II.
But a dismissal for lack of jurisdiction still precludes a plaintiff from
relitigating that ground for dismissal. See id. at 1209-10 (stating “a dismissal for
lack of jurisdiction . . . preclude[s] relitigation of the issues determined in ruling on
the jurisdiction question,” id. at 1209 (internal quotation marks omitted)); Brereton v.
Bountiful City Corp., 434 F.3d 1213, 1219 (10th Cir. 2006) (holding the preclusive
effect of a dismissal for lack of standing “is one of issue preclusion (collateral
estoppel) rather than claim preclusion (res judicata)”); 18A Charles Alan Wright &
Arthur R. Miller, Federal Practice and Procedure § 4436 (3d ed., Oct. 2020 update)
(“Although a dismissal for lack of jurisdiction does not bar a second action as a
matter of claim preclusion, it does preclude relitigation of the issues determined in
ruling on the jurisdiction question unless preclusion is denied for some other

defect, even on futility grounds, does not call for a dismissal with prejudice. The two
concepts do not overlap in those cases where, although amendment would be futile, a
jurisdictional defect calls for a dismissal without prejudice.” Brereton v. Bountiful
City Corp., 434 F.3d 1213, 1219 (10th Cir. 2006).
7

013

Appellate Case:-20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 8

reason.”). Because issue preclusion bars Velasquez’s claims against the State
Defendants in Velasquez II, we exercise our discretion to affirm the district court’s
dismissal of those claims on an alternative basis.5
The elements of issue preclusion are:
(1) the issue previously decided is identical with the one presented in the
action in question, (2) the prior action has been finally adjudicated on the
merits, (3) the party against whom the doctrine is invoked was a party, or in
privity with a party, to the prior adjudication, and (4) the party against
whom the doctrine is raised had a full and fair opportunity to litigate the
issue in the prior action.
Matosantos Com. Corp., 245 F.3d at 1207 (internal quotation marks omitted). All
four elements for the application of issue preclusion are satisfied in this case.
The first element is met because Velasquez II raised the same Rooker-Feldman
issue as Velasquez I. The district court held that both actions originated from the
same administrative law case and subsequent state-court litigation in Utah. Both
complaints also alleged that Velasquez’s civil rights had been violated in those prior
proceedings and that certain state statutes were unconstitutional. Further, the court

5 “

[W]e treat arguments for affirming the district court differently than
arguments for reversing it. We have long said that we may affirm on any basis
supported by the record, even if it requires ruling on arguments not reached by the
district court or even presented to us on appeal.” Richison v. Ernest Grp., Inc.,
634 F.3d 1123, 1130 (10th Cir. 2011). Thus, we must affirm the district court’s
judgment “if the result is correct although the lower court relied upon a wrong
ground or gave a wrong reason.” Id. (internal quotation marks omitted). Moreover,
Velasquez had the opportunity to address claim preclusion in the district court, and
the doctrines of claim preclusion and issue preclusion are “closely related,” SIL-FLO,
Inc. v. SFHC, Inc., 917 F.2d 1507, 1520 (10th Cir. 1990). Finally, issue preclusion
presents a legal question. See Bell v. DillardDep’t Stores, Inc., 85 F.3d 1451, 1453
(10th Cir. 1996). Thus, the efficient use of judicial resources weighs against a
remand for initial consideration by the district court.
8

014

-Appellate-Case: 20-4087

Document: 010110512636

Date Filed: 04/26/2021

Page: 9

construed the complaint in Velasquez II as seeking to void the Utah administrative
proceedings. See R. at 596. Moreover, consistent with the district court’s
construction, Velasquez states in his appeal brief that, “if compared, the Opening
Complaints from Velasquez I to this Velasquez II are largely the same question.”
Aplt. Br. at 17 (internal quotation marks omitted) (italics added).
A dismissal for lack of jurisdiction satisfies the second element—a judgment
“on the merits”—if the jurisdictional issue was actually adjudicated in the previous
action. See Matosantos Com. Corp., 245 F.3d at 1209-10. As we have noted, the
Rooker-Feldman issue was actually and finally adjudicated in Velasquez I.
The third element is met because Velasquez was the plaintiff in both actions.
And finally, Velasquez had a full and fair opportunity to litigate the
Rooker-Feldman issue in Velasquez I. In particular, he challenged the district court’s
application of that doctrine in a post-judgment motion and he appealed the judgment
to this court. See Curley v. Perry, 246 F.3d 1278, 1284 (10th Cir. 2001) (rejecting a
due process challenge to dismissals on screening under § 1915(e)(2) based upon the
“adequate procedural safeguards to avoid erroneous dismissals,” including “a
reasonable post-judgment opportunity to present . . . arguments to the district court
and the appellate court”). Nor does Velasquez’s disagreement with the
Rooker-Feldman ruling in Velasquez I mean that he was denied a full and fair
opportunity to litigate the issue in that case. See SIL-FLO, Inc. v. SFHC, Inc.,
917 F.2d 1507, 1521 (10th Cir. 1990).

9

015

——Appellate ease: 20-4087- - Document: 010110512636

III.

Date Filed: 04/26/2021

Page: 10

Conclusion
The district court’s judgment is affirmed. The court’s dismissal of

Velasquez’s claims against the State Defendants is affirmed on the alternative basis
of issue preclusion. Velasquez’s application to proceed on appeal without
prepayment of fees and costs is granted.
Entered for the Court

Nancy L. Moritz
Circuit Judge

10

016

017

018

■Appeiiate Case:'20-4087“_Docu'ment: 010110512639

Date Filed: 04/26/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

April 26, 2021

Jane K. Castro
Chief Deputy Clerk

Mr. Carlos Velasquez
P.O. Box 58486
2255 East Sunnyside
Salt Lake City, UT 84158
RE:

20-4087, Velasquez v. State of Utah, et al.
Dist/Ag docket: 2:20-CV-00205-DB

Dear Appellant:
Enclosed is a copy of the order and judgment issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

CMW/djd

019

020

>

f

\

021

r

}

i

022

Case 2:20-cv-00205-DAK Documents Filed 02/01/21 PagelD.959 Pag e 1 of 2
_
Appellate Caser20-4087-■ Document:'010110473915—DateTiled 702/0172021
Page: 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH

CARLOS VELASQUEZ,
MEMORANDUM DECISION AND
ORDER DENYING MOTION
TO PROCEED IN FORMA PAUPERIS
ON APPEAL

Plaintiff,
v.
STATE OF UTAH, ET AL.,

Case No. 2:20-CV-205-DAK

Defendants.

Judge Dale A. Kimball

This matter is before the court on Plaintiffs motion for leave to proceed in forma
pauperis on appeal [ECF No. 32] pursuant to Rule 24 of the Federal Rules of Appellate
Procedure. Plaintiff proceeded in forma pauperis at the district court level.
Rule 24 provides that “a party who was permitted to proceed in forma pauperis in the
district-court action . .. may proceed on appeal in forma pauperis without further authorization,
unless: (A) the district court-before or after the notice of appeal is filed-certifies that the appeal
is not taken in good faith . .. and states in writing its reasons for the certification.” Fed. R. App.
P. 24(a)(3)(A).
The court certifies that Plaintiffs current appeal is not taken in good faith. Plaintiff failed
to plead plausible causes of action against Defendants. Despite filing a lengthy Complaint,
Plaintiffs allegations were vague and difficult to decipher. Moreover, his claims were barred by
claim preclusion. Therefore, his appeal lacks merit and his motion to appeal in forma pauperis
[ECF No. 147] is DENIED. Pursuant to Federal Rule of Appellate Procedure 24(a)(4), the Clerk

023

Case 2:20-cv-00205-DAK Documents Filed 02/01/21_RagelD.960- Page 2 of 2
■Appel1ate'Caser20-4'087' Document: 010110473915 Date Filed: 02/01/2021 Page: 2

of Court shall immediately notify the Tenth Circuit Court of Appeals of this denial. Plaintiff
should either pay the appellate filing fee or file a motion in the Tenth Circuit Court of Appeals to
proceed in forma pauperis pursuant to Rule 24(a)(5) of the Federal Rules of Appellate Procedure.
DATED this 1st day of February, 2021.
BY THE COURT:

DALE A. KIMBALL
United States District Judge

024

025

J

•0

l
->

026
/
.1

Case 2:20-cv-00205-DB Document 29 Filed 07/08/20 Page 1 of 3 PagelD 737
■Appe!fate-Caser20-4087—Document: 010110400309—Date-Filed: 09/01/2020 -Page: 662 -

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH
CENTRAL DIVISION
CARLOS VELASQUEZ,

MEMORANDUM DECISION
AND ORDER

Plaintiff,
Case No. 2:20-cv-00205-DB-PMW
v.
STATE OF UTAH et al.,
Defendants.

District Judge Dee Benson
Chief Magistrate Judge Paul M. Warner

Before the court are Plaintiff Carlos Velasquez’s (“Plaintiff’) “Motion to Set Aside for
Fraud on the Court” fPkt. No. 201 and “Motion for Reassignment of the Judge” iPkt. No. 251. .
The court elects to determine the motions on the basis of the written memoranda and finds that
oral argument would not be helpful or necessary. DUCivR 7- 1(f).
Plaintiff’s “Motion to Set Aside for Fraud on the Court” makes a variety of claims, citing
the Older Americans Act and Section 1988 of the Civil Rights Act. Dkt. No. 20 at 2-1. Plaintiff
argues that the court’s decision dismissing this action “lacks subject-matter” and “is not related
to any part of the petitioner’s complaint.” Id. at 4. Plaintiff also accuses this court of various
procedural deficiencies such as a failure to notify “those parties served.” Id. at 9. Under the
heading “Conclusions,” Plaintiff argues that this court is unduly prejudiced against Plaintiff and
that this court’s dismissal of Plaintiff’s case was “fraudulent.” Id. at 11-12. Plaintiff further
criticizes the opinion of Judge Nuffer, upon which this court relied in part in dismissing this
action, claiming that Judge Nuffer’s opinion was “speculative.” Id. at 12. Plaintiff contends that
the Court of Appeals (seemingly the Tenth Circuit) “did not recognize any statutory question that

662

027

Case 2:20-cv-00205-DB Document 29 Filed 07/08/20 Page 2 of 3 PagelD 738
"Appellate Case: 20-4087 Document: 010110400309 Date Filed: 09/01/2020 Page: 663

declared Velasquez seeks repair against the State court judgment, when it was a plenary
challenge against a statute as stated most generally under the statement ofjurisdiction.” [sic] Id.
at 11-12.
The core of Plaintiff’s argument appears to be that this court’s application of the in forma
pauperis (“IFP”) statute “distorted] the nature of the case” in an attempt to get rid of the suit and
“reduce the time the court works upon it.” Id. at 16. Plaintiff contends that this court and Judge
Nuffer are therefore guilty of “conspiracy, contempt, fraud, obstruction, and perjury.” Id.
(emphasis removed). The “fraud on the court” complained of by Plaintiff, then, was allegedly
committed by the court itself when it dismissed the case under the IFP statute.
Upon receipt of this motion, the court examined the complaint anew in light of the IFP
statute. Under that statute, the court is required to “dismiss the case at any time if the court
determines that the action ... fails to state a claim on which relief may he granted.” 28 IJ.S.C. S
1915(e¥2YB~K'ii'). After renewed examination, the complaint fails to state a claim on which relief
may be granted. The court therefore determines that the prior decision dismissing the case was
correct. No fraud was committed by either this court or Judge Nuffer in dismissing Plaintiff’s
actions because they were properly dismissed under the IFP statute.
Plaintiff’s “Request for Reassignment of the Judge” questions this court’s efficiency and
impartiality in addressing the “Motion to Set Aside for Fraud on the Court.” Plaintiff’s
complaints about efficiency apparently stem from the fact that the Motion to Set Aside was filed
on May 7, 2020 and has not been resolved prior to this order. Plaintiff’s allegation that this court
is not impartial apparently stems solely from the fact this court decided against Plaintiff in

2

663

028

Case 2:20-cv-00205-DB Document 29 Filed 07/08/20 Paqe 3 of 3 Paq elD 739
AppellateXase:’20-4087 " Document: 010110400309—Dat6Tiled:'O9/O1/2O20
Page:'664

dismissing the underlying action. This court has no personal or professional connections that
would call its impartiality into question in this matter. Any delay in disposing of Plaintiff’s
Motion to Set Aside did not prejudice Plaintiff’s ability to seek justice from this court. Plaintiff’s
“Request for Reassignment of the Judge” is therefore denied.
CONCLUSION
Based upon the foregoing, Plaintiff’s Motions are hereby DENIED.

DATED this 8th day of July, 2020.

BY THE COURT:

DEE BENSON
United States District Judge

3

664

029

■s

\

030

_Case 2:20-cv-00205-DB Document 19 Filed 04/27/20 PagelD.630 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH
CENTRAL DIVISION

CARLOS VELASQUEZ,

JUDGMENT IN A CIVIL CASE

Plaintiff,

Case No. 2:20-cv-00205-DB-PMW

v.

District Judge Dee Benson
STATE OF UTAH et al.,
Chief Magistrate Judge Paul M. Warner
Defendants.

IT IS ORDERED AND ADJUDGED that this action is DISMISSED WITH PREJUDICE
under the authority of the IFP Statute. See 28 U.S.C. § 1915(e)(2)(B)(ii).

DATED this 24th day of April, 2020.

BY THE COURT:

DEE BENSON
United States District Judge

031

. Case 2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.618 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH
CENTRAL DIVISION
CARLOS VELASQUEZ,

MEMORANDUM DECISION
AND ORDER

Plaintiff,
Case No. 2:20-cv-00205-DB-PMW
v.
STATE OF UTAH et al.,
Defendants.

District Judge Dee Benson
Chief Magistrate Judge Paul M. Warner

Before the court are Plaintiff Carlos Velasquez’s (“Plaintiff”) complaint1 and several
motions.2 The court notes that Plaintiff is proceeding pro se in this case. Consequently, the court
will construe his pleadings liberally. See, e.g., Ledbetter v. City of Topeka, 318 F.3d 1183, 1187
(10th Cir. 2003). The court also notes that Plaintiff has been permitted to proceed in forma
pauperis under 28 U.S.C. § 1915 (“IFP Statute”).3 Accordingly, the court will review the
sufficiency of Plaintiff’s complaint under the authority of the IFP Statute.

BACKGROUND
On September 18, 2018, Plaintiff filed an action in this court against the State of Utah;
the Utah Department of Human Services; the Utah Office of Administrative Hearings; and the
Utah Division of Aging and Adult Services, Adult Protective Services. See Velasquez v. State of

l

See ECF no. 4.

2 See ECF nos. 2,9, 11.
3 See ECF no. 3.

032

Case 2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.619 Page 2 of 12

Utah, 2:18-cv-00728-DN (“Velasquez F). In a memorandum decision and order dated February
25, 2019, District Judge David Nuffer reviewed Plaintiff’s complaint in Velasquez I under the
authority of the IFP Statute.4
In that order, Judge Nuffer noted that Plaintiff’s complaint in Velasquez I-was “generally
confusing and difficult to decipher.”5 Nevertheless, Judge Nuffer noted that the genesis of
Velasqez I appeared to be an administrative action that was commenced against Plaintiff by the
Utah Division of Aging and Adult Services.6 In Velasquez /, Plaintiff identified that case as
“Utah Administrative Case: 2246378”7 (“Administrative Case”). Plaintiff’s complaint in
Velasquez 1 detailed “an extensive history of litigating the Administrative Case in Utah
administrative agencies, the Utah Third District Court, the Utah Court of Appeals, and the Utah
Supreme Court,” which included a constitutional claim asserted in Velasquez 7.8 Plaintiff’s
complaint in Velasquez I sought (1) a declaration of unconstitutionality with respect to several
statutes and regulations; (2) “[f]alsity” of the Administrative Case; (3) “[ijnterest to preference
on [Velasquez I] case over ordinary civil cases”; (4) “[ijnterest to three applications for
extraordinary writ[s], Mandamus, Prohibition, [and] Execution”; and (5) “[ijnterest to generate

4 See Velasquez I, ECF no. 27.
5 Id. at 1.
6 See id. at 2.
7 See Velasquez I, ECF no. 3 a 1.
8

Id. at 2.
2

033

Case_2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.620 Page 3 of 12

an effective ruling to prosecute original tortfeasors against a manner of conspiracy.”9 Plaintiff’s
complaint in Velasquez I also alleged that Plaintiff had ‘“a sustained interest to have some more
impartial committee weigh whether’ the Utah Supreme Court ‘sustained procedural malice to
wrongful decline of interest’ when it issued certain orders in the course of his litigation of the
Administrative Case.”10 The complaint in Velasquez I further alleged “that the Utah Supreme
Court ‘sustained malice,’ ‘refused to clarify the constitutional question,’ and ‘refused to
recognize evidence.
After reviewing Plaintiff’s complaint in Velasquez /, Judge Nuffer concluded that
Plaintiff’s action was barred by the Rooker-Feldman doctrine.12 Judge Nuffer also concluded
that it would be futile to provide Plaintiff with an opportunity to amend his complaint.13
Accordingly, Judge Nuffer dismissed Velasquez I with prejudice under the authority of the IFP
Statute for failure to state claims upon which relief could be granted.14 See 28 U.S.C.
§ 1915(e)(2)(B)(ii).

9 Id. at 13-52; see also Velasquez I, ECF no. 27 at 2.
10 Velasquez I, ECF no. 27 at 2 (quoting, Velasquez I, ECF no. 3 at 24-25).
11 Id. (quoting Velasquez /, ECF no. 3 at 25)
12 See id. at 4-5.
13 See id. at 5.
14 See id. at 5-6.
3

034

Case 2:2Q-cv-00205-DB Document 18 Filed 04/27/20 PagelD.621 Page 4 of 12

On March 8, 2019, Plaintiff filed a motion to reconsider Judge Nuffer’s February 25,
2019 memorandum decision and order dismissing Velasquez 7.15 Judge Nuffer denied that
motion on March 12, 2019, concluding that Plaintiff’s arguments were “incorrect and without
merit.”16
On March 20, 2019, Plaintiff filed a notice of appeal in Velasquez I}1 On June 11, 2019,
the Tenth Circuit Court of Appeals issued an order and judgment on Plaintiff’s appeal. See
Velasquez v. Utah, 775 F. App’x 420, 421-23 (10th Cir. 2019). In that order and judgment, the
Tenth Circuit stated:
This appeal is the latest skirmish in a long-running legal battle between [Plaintiff]
and various agencies and courts of the State of Utah. The saga appears to have
begun with administrative law proceedings at the Utah Department of Human
Services. After the administrative proceedings concluded, he took his fight to
Utah state court, where in addition to his original claims he raised new
constitutional claims regarding the fairness of his administrative proceedings and
challenging the constitutionality of several Utah statutes and regulations. Unable
to find success after exhausting his appeals in Utah state court, he sued the State
of Utah and several state agencies in federal district court. In federal court he
once again raised his constitutional claims from state court while adding
constitutional claims....
Id. at 421.

15 See Velasquez I, ECF no. 29.
16 Velasquez /, ECF no. 31 at 2.
17 See Velasquez I, ECF no. 33.
4

035

Case 2:20;CV-^C)p205-DB Document 18 Filed 04/27/20 PagelD.622 Page 5 of 12

On October 1, 2019, Plaintiff filed a petition for a writ of certiorari with the United States
Supreme Court with respect to Velasquez I.n On December 9, 2019, the Supreme Court denied
Plaintiff’s petition.19
On April 3, 2020, Plaintiff filed his complaint in the instant action.20 Plaintiff’s 91-page
complaint names the following four parties as defendants, all of which were named as defendants
in Velasquez I: the State of Utah, the Utah Department of Human Services, the Utah Division of
Aging and Adult Services/Adult Protective Services, and the Utah Office of Administrative
Hearings.21 Plaintiff also names the following defendants: Utah Governor Gary R. Herbert;
Utah Attorney General Sean Reyes; the Utah Legislature; the Utah Office of Legislative
Research and General Counsel; Thomas R. Vaughn, Utah Attorney of General Counsel; Nels
Holmgren, Utah Division of Aging and Adult Services Division Director; J. Stephen Mikita,
Utah Assistant Attorney General (Adult Protective Services); Sonia Sweeney, Utah Office of
Administrative Hearings Division Director; Laura Thompson, Utah Assistant Attorney General

18 See Velasquez I, ECF no. 50.
19 See Velasquez /, ECF no. 51.
20 See ECF no. 4. The court’s citations to Plaintiff’s complaint will reference page numbers in
sequence, regardless of how they are numbered by Plaintiff.
21 See id. at 1.
5

036

,Gase_2:20-cv-00205-DB Document 18 Filed 04/27/20 ^agelD.623 Page 6 of 12

(Utah Department of Human Services); Amanda Slater, Utah Office of Licensing Division
Director; and the United States Administration for Community Living.22
In the first paragraph of the substantive portion of his complaint, Plaintiff alleges that this
action originates from the Administrative Case.23 Plaintiff also details the proceedings related to
the Administrative Case,24 references the Administrative Case in several other portions of his
complaint,25 and requests that the Administrative Case “must become voided, ‘without merit.”’26
Like his complaint in Velasquez /, Plaintiff’s complaint in this action is generally
confusing and difficult to comprehend. As best the court can decipher, it appears that Plaintiff’s
complaint alleges that his civil rights were violated in the proceedings in the Administrative Case
and that certain Utah statutes and legislation are unconstitutional.
LEGAL STANDARDS
Whenever the court authorizes a party to proceed without payment of fees under the IFP
Statute, the court is required to “dismiss the case at any time if the court determines that... the
action .. . fails to state a claim on which relief may be granted.” 28 U.S.C. § 1915(e)(2)(B)(ii).
In determining whether a complaint fails to state a claim for relief under the IFP Statute, the

22 See id. at 14-15. Except for the United States Administration for Community Living, all of the
defendants named in Plaintiff’s complaint in this action will be referred to collectively as the
“State Defendants.”
23 See id. at 22.
24 See id. at 27-28.
25 See id. at 25, 90.
26 Mat 90.
6

037

Case 2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.624 Page 7 of 12

court employs the same standard used for analyzing motions to dismiss for failure to state a
claim under rule 12(b)(6) of the Federal Rules of Civil Procedure. See Kay v. Bemis, 500 F.3d
1214, 1217-18 (10th Cir. 2007). Under that standard, the court “look[s] for plausibility in th[e]
complaint.” Id. at 1218 (quotations and citations omitted) (second alteration in original). More
specifically, the court “look[s] to the specific allegations in the complaint to determine whether
they plausibly support a legal claim for relief. Rather than adjudging whether a claim is
‘improbable,’ ‘[fjactual allegations [in a complaint] must be enough to raise a right to relief
above the speculative level.’” Id. (quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 555-56
(2007)) (other quotations and citation omitted) (second and third alterations in original).
In undertaking that analysis, the court must be mindful that Plaintiff is proceeding pro se
and that “[a] pro se litigant’s pleadings are to be construed liberally and held to a less stringent
standard than formal pleadings drafted by lawyers.” Hall v. Bellmon, 935 F.2d 1106, 1110 (10th
Cir. 1991); see also, e.g., Ledbetter, 318 F.3d at 1187. At the same time, however, it is not “the
proper function of the district court to assume the role of advocate for the pro se litigant,”
Bellmon, 935 F.2d at 1110, and the court “will not supply additional facts, nor will [it] construct a
legal theory for [a pro se] plaintiff that assumes facts that have not been pleaded.” Dunn v.
White, 880 F.2d 1188, 1197 (10th Cir. 1989) (per curiam). Further,
[t]he broad reading of [a pro se] plaintiff’s complaint does not
relieve the plaintiff of the burden of alleging sufficient facts on
which a recognized legal claim could be based .... [C]onclusory
allegations without supporting factual averments are insufficient to
state a claim on which relief can be based. This is so because a pro
se plaintiff requires no special legal training to recount the facts
surrounding his alleged injury, and he must provide such facts if
the court is to determine whether he makes out a claim on which
7

038

.-.-Case 2:2Q:ev-00205-DB Document 18 Filed 04/27/20 PagelD.625 Page 8 of 12

relief can be granted. Moreover, in analyzing the sufficiency of the
plaintiff’s complaint, the court need accept as true only the
plaintiff’s well-pleaded factual contentions, not his conclusory
allegations.
Bellmon, 935 F.2d at 1110 (citations omitted).
After reviewing a pro se plaintiff’s complaint under the IFP Statute, the court may
dismiss the complaint for failure to state a claim “only where it is obvious that the plaintiff
cannot prevail on the facts he has alleged and it would be futile to give him an opportunity to
amend.” See Kay, 500 F.3d at 1217 (quotations and citation omitted).
ANALYSIS
I.

Claim Preclusion
“Under res judicata, or claim preclusion, a final judgment on the merits of an action

precludes the parties or their privies from relitigating issues that were or could have been raised
in the prior action.” Satsky v. Paramount Commc’ns, Inc., 1 F.3d 1464, 1467 (10th Cir. 1993)
(quotations and citation omitted). In the Tenth Circuit, “[cjlaim preclusion requires: (1) a
judgment on the merits in the earlier action; (2) identity of the parties or their privies in both
suits; and (3) identity of the cause of action in both suits.” Yapp v. Excel Corp., 186 F.3d 1222,
1226 (10th Cir. 1999). In determining the third element, the Tenth Circuit has adopted the
transactional approach to a cause of action, defining it to include “all claims or legal theories of
recovery that arise from the same transaction, event, or occurrence.” Wilkes v. Wyo. Dep't of
Emp’tDiv. ofLabor Standards, 314 F.3d 501, 504 (10th Cir. 2003).
Based upon the analysis set forth below, and the history of Velasquez I set forth above,
the court concludes that all three of the above-referenced elements are satisfied in this action as
8

039

_ Case 2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.626 Page 9 of 12

to the State Defendants Therefore, the court concludes that all of Plaintiff’s claims in this action
against the State Defendants are barred by the doctrine of claim preclusion.
First, there was a final judgment on the merits in an earlier action. The court previously
dismissed Velasquez I with prejudice, and that dismissal was affirmed on appeal by the Tenth
Circuit.
Second, the court concludes that, as to Plaintiff and the State Defendants, there is identity
of the parties or their privies in both this action and Velasquez I. As in this action, Plaintiff was
the sole named plaintiff in Velasquez I. Additionally, as indicated above, Plaintiff has included as
named defendants in this action all four of the parties that were named defendants in Velasquez I,
namely the State of Utah, the Utah Department of Human Services, the Utah Division of Aging
and Adult Services/Adult Protective Services, and the Utah Office of Administrative Hearings.
As for the remaining State Defendants, the court concludes that they are in privity with
the four defendants named in Velasquez I. In determining privity, courts have held that “parties
nominally different may be, in legal effect, the same.” Sunshine Anthracite Coal Co. v. Adkins,
310 U.S. 381, 402 (1940). The Tenth Circuit has held that “[t]he general weight of authority
appears to be that... government employees are in privity with their employer in their official
capacities.” Gonzales v. Hernandez, 175 F.3d 1202, 1206 (10th Cir. 1999). Furthermore, an
action against a government official in his or her official capacity is “simply another way of
pleading an action against an entity of which an officer is an agent.” McDonald v. Wise, 769 F.3d
1202, 1215 (10th Cir. 2014) (quotations and citation omitted); see also Will v. Mich. Dep’t of
State Police, 491 U.S. 58, 71 (1989) (“[A] suit against a state official in his or her official

9

040

Case 2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.627 Page 10 of 12

capacity is not a suit against the official but rather is a suit against the official’s office.”); Baker v.
Chisom, 501 F.3d 920, 925 (8th Cir. 2007) (“[T]he real party in interest in an official-capacity
suit is the governmental entity and not the named official. The doctrine of res judicata bars a
plaintiff from suing a succession of public officials on the same official-capacity claim.”)
(quotations and citation omitted) (alteration in original).
Under those principles, the following State Defendants are in privity with the four named
defendants in Velasquez I as follows: (1) the State of Utah is in privity with Utah Governor Gary
R. Herbert; Utah Attorney General Sean Reyes; the Utah Legislature; the Utah Office of
Legislative Research and General Counsel; Thomas R. Vaughn, Utah Attorney of General
Counsel; and Amanda Slater, Utah Office of Licensing Division Director; (2) the State of Utah
and/or the Utah Division of Aging and Adult Services/Adult Protective Services are in privity
with Nels Holmgren, Utah Division of Aging and Adult Services Division Director; and J.
Stephen Mikita, Utah Assistant Attorney General (Adult Protective Services); (3) the State of
Utah and/or the Utah Department of Human Services are in privity with Laura Thompson,
Assistant Attorney General (Utah Department of Human Services); and (4) the State of Utah
and/or the Utah Office of Administrative Hearings are in privity with Sonia Sweeney, Utah
Office of Administrative Hearings Division Director.
Third and finally, under the transactional approach adopted by the Tenth Circuit, the court
concludes that all of Plaintiff’s “claims or legal theories of recovery” in this action against the
State Defendants “arise from the same transaction, event, or occurrence.” Wilkes, 314 F.3d at
504. Plaintiff’s complaint in this action make it clear that, as in Velasquez /, all of his claims and

10

041

Case 2:20-cv-00205-DB Document 18 Filed 04/27/20 PageiD.628 Page 11 of 12

legal theories have their genesis in the Administrative Case. As such, the court concludes that
Plaintiff is attempting to relitigate issues related to the Administrative Case “that were or could
have been raised” in Velasquez I. Satsky, 7 F.3d at 1467 (quotations and citation omitted)
(emphasis added).
For those reasons, the court concludes that all of the foregoing elements are satisfied and,
consequently, that all of Plaintiff’s claims in this action against the State Defendants are barred
by the doctrine of claim preclusion. Accordingly, the court concludes that Plaintiff has failed to
state any claims upon which relief can be granted against the State Defendants. Therefore, all of
Plaintiff’s claims in this action against the State Defendants are dismissed with prejudice under
the authority of the IFP Statute. See 28 U.S.C. § 1915(e)(2)(B)(ii).

n.

United States Administration for Community Living
While Plaintiff has named the United States Administration for Community Living as a

defendant in his complaint, his complaint is entirely devoid of any allegations concerning that
defendant. As such, the court concludes that Plaintiff has failed to state any claims upon which
relief can be granted against that defendant. Accordingly, all of Plaintiff’s claims against the
United States Administration for Community Living are dismissed with prejudice under the
authority of the IFP Statute. See id.

m.

Futility of Amendment
As previously noted, after reviewing a pro se plaintiff’s complaint under the IFP Statute,

the court may dismiss the complaint for failure to state a claim “only where it is obvious that the
plaintiff cannot prevail on the facts he has alleged and it would be futile to give him an

11

042

Case_2:20-cv-00205-DB Document 18 Filed 04/27/20 PagelD.629 Page 12 of 12

opportunity to amend.” See Kay, 500 F.3d at 1217 (quotations and citation omitted). The court
has determined that Plaintiff could not provide any additional, plausible allegations that would
save any of his claims from dismissal under the analysis set forth above. Accordingly, the court
concludes that it would be futile to provide Plaintiff with an opportunity to amend his complaint.
TV.

Plaintiff’s Motions
As previously noted, Plaintiff has filed multiple motions in this case. The court has

carefully reviewed those motions and determined that none of them has any effect on the analysis
set forth above concerning the sufficiency of Plaintiff’s complaint this action. Accordingly, the
court concludes that all of Plaintiff’s motions are moot.
CONCLUSION AND ORDER
Based upon the foregoing, IT IS HEREBY ORDERED:
1.

All of Plaintiff’s motions27 are MOOT.

2.

This action is DISMISSED WITH PREJUDICE under the authority of the IFP
Statute. See 28 U.S.C. § 1915(e)(2)(B)(ii).

IT IS SO ORDERED.
DATED this 24th day of April, 2020.

BY THE COURT:

DEE BENSON
United States District Judge

27 See ECF nos. 2, 9, 11.
12

043

r

044

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 8 of 55 PagelD 472
Appellate Case: 20-4087 Document: 010110400309 Date Filed: 09/01/2020 Page: 471

Appellate Case: 19-4041

Document: 0.10110186194

Date Filed: 06/21/2019

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 21,2019
Elisabeth A. Shumaker
Clerk of Court

CARLOS VELASQUEZ,
Plaintiff - Appellant,
No. 19-4041

v.
STATE OF UTAH; UTAH
DEPARTMENT OF HUMAN SERVICES
AND AGENCIES; UTAH OFFICE OF
ADMINISTRATIVE HEARINGS;
DIVISION OF AGING AND ADULT
SERVICES, ADULT PROTECTIVE
SERVICES,
Defendants - Appellees.
ORDER
Before McHUGH, KELLY, and MORITZ, Circuit Judges.

This matter is before the court on the appellant’s Motion for Stay ofMandate with
Interest the Panel Must Recuse. Upon careful consideration, the motion is DENIED. The
mandate will not be stayed, and this panel will not recuse itself from this matter.
Entered for the Court

ELISABETH A. SHUMAKER, Clerk

471

045

K

I

*

I

046
:

_

_Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 9 of 55 PagelD 473
Appellate Case: 20-4087 Document: 010110400309 Date Filed: 09/01/2020 Page: 472

Appellate Case: 19-4041

Document: 010110180873

Date Filed: 06/11/2019

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 11, 2019
Elisabeth A. Shumaker
Clerk of Court

CARLOS VELASQUEZ,
Plaintiff - Appellant,
v.
STATE OF UTAH; UTAH
DEPARTMENT OF HUMAN SERVICES
AND AGENCIES; UTAH OFFICE OF
ADMINISTRATIVE HEARINGS;
DIVISION OF AGING AND ADULT
SERVICES, ADULT PROTECTIVE
SERVICES,

No. 19-4041
(D.C. No. 2:18-CV-00728-DN)
(D. Utah)

Defendants - Appellees.
ORDER AND JUDGMENT"
Before McHUGH, KELLY, and MORITZ, Circuit Judges.**
Plaintiff-Appellant Carlos Velasquez appeals from the district court’s
dismissal of his case as barred by the Rooker-Feldman doctrine. Exercising
jurisdiction under 28 U.S.G. § 1291, we affirm.

* This order and judgment is not binding precedent, except under the doctrines
of law of the case, res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
** After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument.

472

047

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Paqe 10 of 55 PaqelD 474
7\ppeilate Case:'20-4087—Document: 010110400309—Date4=iFecb09/01/2020— Page: 473

Appellate Case: 19-4041

Document: 010110180873

Date Filed: 06/11/2019

Page: 2

Background
This appeal is the latest skirmish in a long-running legal battle between Mr.
Velasquez and various agencies and courts of the State of Utah. The saga appears to
have begun with administrative law proceedings at the Utah Department of Human
Services. 1 R. 629. After the administrative proceedings concluded, he took his fight
to Utah state court, where in addition to his original claims he raised new
constitutional claims regarding the fairness of his administrative proceedings and
challenging the constitutionality of several Utah statutes and regulations. Id. Unable
to find success after exhausting his appeals in Utah state court, he sued the State of
Utah and several state agencies in federal district court. Id. at 6. In federal court he
once again raised his constitutional claims from state court while adding
constitutional claims that the Utah Supreme Court ‘“sustained malice,’ ‘refused to
clarify the constitutional question,’ and ‘refused to recognize evidence.’” Id. at 629
(quoting Compl. at 25).
Because Mr. Velasquez proceeded pro se and in forma pauperis (IFP), the
district court construed his complaint liberally, but found the claims to be “generally
confusing and difficult to decipher.” Id. at 628. Ultimately, the court dismissed his
complaint as barred by the Rooker-Feldman doctrine because it “to one extent or
another” asked the court to review “certain decisions rendered concerning the
Administrative Case by Utah administrative agencies, the Utah Third District Court,
the Utah Court of Appeals, and the Utah Supreme Court.” Id. at 631. Following that

2

473

048

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Paae 11 of 55 PaaelD 475
"Appellate Case:-20-4087—Document‘010110400309 —Date Fifed:-09/01/2020 -Page: 474

Appellate Case: 19-4041

Document: 010110180873

Date Filed: 06/11/2019

Page: 3

order, Mr. Velasquez filed a motion for reconsideration,1 which the district court
denied. Id. at 712. The district court denied Mr. Velasquez leave to proceed on
appeal IFP, certifying that the appeal was not taken in good faith because it “presents
no substantial question for review” and “there is no reasonable basis for his claims of
error.” Id. at 728. Mr. Velasquez has renewed his motion to proceed IFP on appeal
in this court.
Discussion
We review a district court’s dismissal for lack of subject matter jurisdiction de
novo, and any factual findings for clear error. Stuart v. Colo. Interstate Gas Co.. 271
F.3d 1221, 1225 (10th Cir. 2001). The denial of a motion for reconsideration under
Rule 59(e) is reviewed for abuse of discretion. Nelson v. City of Albuquerque. 921
F.3d 925, 929 (10th Cir. 2019).
First, Mr. Velasquez challenges the dismissal of his case. The premise of the
Rooker-Feldman doctrine is that 28 U.S.C. § 1257(a) gives only the United States
Supreme Court jurisdiction to review appeals from state court judgments. See Dist.
of Columbia Ct. of Appeals v. Feldman. 460 U.S. 462 (1983); Rooker v. Fid. Trust

1 While Mr. Velasquez identified Federal Rule of Civil Procedure 60(a) as the basis
for his reconsideration motion, that rule is usually reserved for correcting clerical
errors or inadvertent mistakes. See McNickle v. Bankers Life and Cas. Co.. 888 F.2d
678, 682 (10th Cir. 1989); 11 Charles Allen Wright & Arthur R. Miller, Federal
Practice & Procedure § 2854 (3d ed., April 2019 update) [“Wright & Miller”].
Instead, Rule 59(e) is the mechanism typically used to correct a substantive error in a
court’s legal determination after judgment has been entered. See Nelson. 921 F.3d at
928-29; Servants of the Paraclete v. Does. 204 F.3d 1005, 1012 (10th Cir. 2000); 11
Wright & Miller § 2810.1. Accordingly, for purposes of this appeal we construe his
motion as one under Rule 59(e).
3

474

049

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 12 of 55 PagelD476
7\ppe1late'Case:'20-4087' -Document: 010110400309—Bate-Fifed^09/O1/2O2O--Page:.475.

Appellate Case: 19-4041

Document: 010110180873

Date Filed: 06/11/2019

Page: 4

Co.. 263 U.S. 413 (1923). By negative inference, inferior federal courts lack subject
matter jurisdiction to hear appeals from state court. Mo’s Express. LLC v. Sopkin.
441 F.3d 1229, 1233 (10th Cir. 2006). The scope of the doctrine, however, is
narrow. Rooker-Feldman only bars federal district courts from hearing cases
“brought by state-court losers complaining of injuries caused by state-court
judgments rendered before the district court proceedings commenced and inviting
district court review and rejection of those judgments.” Exxon Mobil Corn, v. Saudi
Basic Indus. Corp.. 544 U.S. 280, 284 (2005). Where the relief requested would
necessarily undo the state court’s judgment, Rooker-Feldman deprives the district
court of jurisdiction. Mo’s Express. 441 F.3d at 1237.
In Mr. Velasquez’s case, he appears to challenge decisions by the Utah state
courts reviewing his state administrative law appeal. He claims that the Utah state
courts violated his constitutional rights in the course of that litigation and seems to
seek reversal of decisions he lost on the merits. This is precisely the type of suit that
Rooker-Feldman prevents federal district courts from hearing. Having already raised
his various objections in state court and failed, Mr. Velasquez has now “repaired to
federal court to undo the [state-court] judgment” against him. Exxon. 544 U.S. at
293. If he wants to receive federal review of his constitutional claims from Utah
court, his only remedy is an appeal to the United States Supreme Court. The district
court properly dismissed this action for lack of subject matter jurisdiction.
Second, Mr. Velasquez challenges the district court’s denial of his motion for
reconsideration. We review such a denial for an abuse of discretion, and a district
4

475

050

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 13 of 55 PagelD477
'Appellate'Case:"20-4087—Document:010110400309- -Date-Rfed:-09/01/2020
Page: 476_____

Appellate Case: 19-4041

Document: 010110180873

Date Filed: 06/11/2019

Page: 5

court only abuses its discretion when its decision was “arbitrary, capricious,
whimsical, or manifestly unreasonable.” Nalder v. West Park Hosd.. 254 F.3d 1168,
1174 (10th Cir. 2001) (internal quotation marks omitted). Here, Mr. Velasquez’s
motion was impermissibly overlong and entirely “without merit.” 1 R. 712-13. The
district court did not abuse its discretion by denying a motion that raised no new
arguments and did not reveal any defect in the court’s original decision. See Nelson.
921 F.3d at 929-30; Servants. 204 F.3d at 1012.
Finally, we deny Mr. Velasquez’s motion to proceed IFP; he has not advanced
a rational argument on the law and facts to warrant such status. See DeBardeleben v.
Quinlan. 937 F.2d 502, 505 (10th Cir. 1991).
AFFIRMED. All pending motions are DENIED.
Entered for the Court
Paul J. Kelly, Jr.
Circuit Judge

5

476

051

052

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 14 of 55 PagelD478
'Appellate'Case:‘20-4087—DocumentrOI 0110400309- Date-Filed: 09/01/2020—Page:477____

Case 2:18-cv-00728-DN Document 28 Filed 02/25/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
CARLOS VELASQUEZ,

JUDGMENT IN A CIVIL CASE

Plaintiff,

Case No. 2:18-cv-00728-DN

v.

District Judge David Nuffer

STATE OF UTAH; UTAH
DEPARTMENT OF HUMAN SERVICES
AND AGENCIES; UTAH OFFICE OF
ADMINISTRATIVE HEARINGS; and
DIVISION OF AGING AND ADULT
SERVICES, ADULT PROTECTIVE
SERVICES,
Defendants.

IT IS HEREBY ORDERED AND ADJUDGED that this action is DISMISSED
WITH PREJUDICE under the authority of 28 U S.C. S 1915feV2¥BtniY
The clerk is directed to close this action.
Signed February 25, 2019.
BY THE COURT:

David Nuffer
United States District Judge

477

053

\

054

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 15 of 55 PagelD479
Appellate Case: 20=4087- Document: 010110400309
Date Filed: 09/01/2020 Page: 478

Case 2:18-cv-00728-DN Document27 Filed 02/25/19 Page lot6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
CARLOS VELASQUEZ,

MEMORANDUM DECISION AND
ORDER OF DISMISSAL

Plaintiff,
Case No. 2:18-cv-00728-DN
v.

District Judge David Nuffer
STATE OF UTAH, et al.,
Defendants.

Plaintiff Carlos Velasquez filed the complaint1 and several motions (the “Motions”)2 as a
pro se litigant. Because he is proceeding pro se, his pleadings are construed liberally.3 He was
also permitted to proceed in form pauperis under 28 IJ.S.C. S 1915 (the “IFP Statute”);4
accordingly, the sufficiency of his complaint is reviewed under the authority of that statute.

BACKGROUND
Velasquez’s complaint is generally confusing and difficult to decipher. It is addressed to
the “Tenth District” and captioned as a “Petition for Writ of Certiorari” to appeal “Utah
Administrative Case: 2246378” (the “Administrative Case”).5 In the portion entitled, “Notice of

1 Appellant’s Petition for Writ of Certiorari (the “Complaint"), docket no. 3, filed September 18,2018.
2 Pre-Trial Motions, docket no. 4, filed September 18, 2018; Motion to Amend Filing Previously Made, docket no. 7,
filed under seal September 25,2018; Motion to Request an Immediate Hearing, docket no. 10, filed October 24,
2018; Non-Dispositive Motion to Issue Summons, docket no. 11, filed October 24, 2018; Motion to Amend the
Docket to Let the Docket Show the Specific Titles of Papers Submitted, docket no. 13, filed November 20,2018;
Motion to Amend as Correct a Stated Venue of Petition, docket no. 18, filed December 17,2018; Motion to Vacate a
Referral to a Magistrate Judge, docket no. 22, filed January 28, 2019; Motion to Amend a Proposed Order/Query of
Amend, docket no. 23, filed January 29, 2019; Motion for Hearing, docket no. 26, filed February 15,2019
(collectively, the “Motions”).
3 See Ledbetter v. City of Topeka, 318F3d 1183 HS7n0th Cir. 2003).
4 Order on Application to Proceed Without Prepayment of Fees, docket no. 2, filed September 18,2018.
5 Complaint, supra note 1, at 1.

478

055

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Paqe 16 of 55 PaaelD 480
'Appei!ate'Case:'20-"4087—Document: 010110400309—Date-Fifed: 09/01 /2020 —Pa§e:-479

Case 2:18-cv-00728-DN Document 27 Filed 02/25/19 Page 2 of 6

Appeal,” he states that he is seeking (1) a declaration of unconstitutionality with respect to
several statutes and regulations; (2) “[f]alsity” of the Administrative Case; (3) “[i]nterest to
preference on this case over ordinary civil cases”; (4) “[ijnterest to three applications for
extraordinary writ[s], Mandamus, Prohibition, [and] Execution”; and (5) “[i]nterest to generate
an effective ruling to prosecute original tortfeasors against a manner of conspiracy.”6
The genesis of this action appears to be the Administrative Case, which the Utah Division
of Aging and Adult Services, Adult Protection Services, apparently commenced against
Velasquez. According to the complaint, the Administrative Case was based on “an incidence of
Abuse of a Vulnerable Adult.”7 The complaint details an extensive history of litigating the
Administrative Case in Utah administrative agencies, the Utah Third District Court, the Utah
Court ofAppeals, and the Utah Supreme Court. That litigation history includes the constitutional
claim Velasquez asserts in this action.
The complaint goes on to allege that Velasquez has “a sustained interest to have some
more impartial committee weigh whether” the Utah Supreme Court “sustained procedural malice
to wrongful decline of interest” when it issued certain orders in the course of his litigation of the
Administrative Case.8 The complaint further alleges that the Utah Supreme Court “sustained
malice,” “refused to clarify the constitutional question,” and “refused to recognize evidence.”9

6 Id. at 13-52.
7 Id. at 15.
8 Id. at 24-25.
9 Id. at 25.

2

479

056

__ Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 17 of 55 PagelD 481
Appellate Case: 20-4087 Document: 010110400309 Date Fifed: 09/01/2020 Page: 480

Case 2:18-cv-00728-DN Document 27 Filed 02/25/19 Page 3 of 6

LEGAL STANDARDS
Whenever a party is authorized to proceed without payment of fees under the IFP Statute,
the court is required to “dismiss the case at any time if the court determines that... the action
... fails to state a claim on which relief may be granted.”10 In determining whether a complaint
fails to state a claim for relief under the IFP Statute, courts employ the same standard used for
analyzing motions to dismiss for failure to state a claim under Fed. R. Civ. P. 12(h)(6).11 Under
that standard, courts “look for plausibility in th[e] complaint.”12 More precisely, courts “look to
the specific allegations in the complaint to determine whether they plausibly support a legal
claim for relief. Rather than adjudging whether a claim is ‘improbable,’ ‘[fjactual allegations [in
a complaint] must be enough to raise a right to relief above the speculative level.’”13
In undertaking that analysis here, it is recognized that Velasquez is proceeding pro se and
that “[a] pro se litigant’s pleadings are to be construed liberally and held to a less stringent
standard than formal pleadings drafted by lawyers.”14 However, it is not “the proper function of
the district court to assume the role of advocate for the pro se litigant,”15 and the court “will not
supply additional facts, nor will [it] construct a legal theory for [a pro se] plaintiff that assumes
facts that have not been pleaded.”16 Further,
[t]he broad reading of [a pro se] plaintiff’s complaint does not relieve the plaintiff
of the burden of alleging sufficient facts on which a recognized legal claim could
be based.... [C]onclusory allegations without supporting factual averments are
10?susr, s iqistevnnBYiii
11 See Kay v. Bemis, 500F.3d 1214. 1217-18 (10th Cir. 2007).
12 Id. at 1218 (citations and internal quotation marks omitted).
13 Id. (citations and internal quotation marks omitted).
uHailv. Bellman 935 F 2d 1106 1110 (10th Cir 1991V see Ledhetter 318F3d at 1187
15 Bellmon, 935 F.2d at 1110.
16 Dunn v. White. 880 F.2d 1188. 1197 (1 0th Cir. 1989).

3

480

057

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 18 of 55 PagelD 482
Appellate'Case:' 20=4087 Document: 010110400309 Date Fifed: 09/01/2020 Page: 481

Case 2:18-cv-00728-DN Document 27 Filed 02/25/19 Page 4 of 6

insufficient to state a claim on which relief can be based. This is so because a pro
se plaintiff requires no special legal training to recount the facts surrounding his
alleged injury, and he must provide such facts if the court is to determine whether
he makes out a claim on which relief can be granted. Moreover, in analyzing the
sufficiency of the plaintiff’s complaint, the court need accept as true only the
plaintiff’s well-pleaded factual contentions, not his conclusory allegations.'7
After reviewing a pro se plaintiff’s complaint under the IFP Statute, courts may dismiss
the complaint for failure to state a claim “only where it is obvious that the plaintiff cannot prevail
on the facts he has alleged and it would be futile to give him an opportunity to amend. )?18
ANALYSIS
The Rooker-Feldman doctrine bars this action.
Velasquez’s complaint makes it clear that he is asking this court to review, to one extent
or another, certain decisions rendered concerning the Administrative Case by Utah administrative
agencies, the Utah Third District Court, the Utah Court of Appeals, and the Utah Supreme Court.
This is not allowed under the Rooker-Feldman doctrine.
“The Rooker-Feldman doctrine prohibits federal suits that amount to appeals of statecourt judgments.”19 It “establishes, as a matter of subject-matter jurisdiction, that only the United
States Supreme Court has appellate authority to review a state-court decision.”20 “Thus, in
applying the Rooker-Feldman doctrine, [a federal court of appeals] focusfes] on whether the
lower federal court, if it adjudicated [the] plaintiff’s claims, would effectively act as an appellate
court reviewing the state court disposition.”21

17 Bellmon, 935 F.2d at 1110 (citations omitted).
18 See Kay, 500 F.3d at 1217 (citation and internal quotation marks omitted).
19 Bolden v. City of Topeka, 441 F.3d 1129 1139 Cl 0th Cir. 2006).
20Merrilt-Lynch Bus. Fin. Servs. v. Nudell, 363 F 3ri 1072. 1074-75 (1 Oth Cir. 2004); see 28U S C. 5 1257131
(providing that the Supreme Court has jurisdiction to review “[f]inal judgments or decrees rendered by the highest
court of a State in which a decision could be had”).
21 Nudell, 363 F 3d at 1075

4

481

058

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 19 of 55 PagelD483
Appellate Case: 20-4087
Document: 010110400309
Date Filed: 09/01/2020 Page: 482

Case 2:18-cv-00728-DN Document 27 Filed 02/25/19 Page 5 of 6

All of the allegations in Velasquez’s complaint center around proceedings related to the
Administrative Case. Furthermore, Velasquez admits in the complaint that he has already
litigated all of the issues raised in the complaint (including the constitutional issues) in Utah
administrative agencies, the Utah Third District Court, the Utah Court of Appeals, and the Utah
Supreme Court. If Velasquez’s claims were adjudicated in this action, the court would
“effectively act as an appellate court reviewing” the decisions of those state agencies and
tribunals.22 Thus, the Rooker-Feldman doctrine bars this action, and it must be dismissed under
the IFP Statute for failure to state a claim on which relief can be granted.23
Amendment would be futile.
As previously noted, after reviewing a pro se plaintiff’s complaint under the IFP Statute,
the complaint may be dismissed for failure to state a claim “only where it is obvious that the
plaintiff cannot prevail on the facts he has alleged and it would be futile to give him an
opportunity to amend.”24 Here, there is no additional plausible allegations that would save any of
Velasquez’s claims from dismissal. Accordingly, it would be futile to provide Velasquez with an
opportunity to amend the complaint.
The Motions are moot.
After carefully reviewing the Motions, it is determined that none of the Motions has any
effect on the analysis set forth above concerning the sufficiency of Velasquez’s complaint.
Accordingly, all of the Motions will be denied as moot.

22 Id.
23 See 7.8TISC. S 1 <mreY7.YRYii1
24 See Kay, 500 F.3d at 1217 (citation and internal quotation marks omitted).

5

482

059

Case 2:20-cv-00205-DB Document 4-5 Filed 04/03/20 Page 20 of 55 PagelD484
'Appellate-6ase:-2G-4Q87—Document: 010110400309—Date-Filed:.09/01/2020 _Page;_483,

Case 2:18-cv-00728-DN Document 27 Filed 02/25/19 Page 6 of 6

ORDER
THEREFORE, IT IS HEREBY ORDERED as follows:
1.

All of the Motions25 are DENIED as moot.

2.

This action will be DISMISSED WITH PREJUDICE under the authority of the

IFP Statute.26
Signed February 25, 2019.
BY THE COURT:

v
David Nuffer
United States District Judge

25 See supra note 2.
26 See 2StT.SC S 19isre¥?tmviit

6

483

060

Additional material
from this filing is
available in the
Clerk's Office.

